APPENDIX

23092.3

TABLE OF CONTENTS
Appendix A:
Appendix B:

Appendix C:
Appendix D:

Appendix E:

Appendix F:

23092.3

Court of appeals opinion,
May 11, 2020 ............................................ 1a
District court order
regarding costs,
June 26, 2019 .......................................... 15a
District court bill of costs,
June 26, 2019 .......................................... 23a
Court of appeals judgment
regarding costs in prior appeal,
Nov. 29, 2017 .......................................... 26a
Court of appeals bill of costs
in prior appeal,
Feb. 14, 2018 .......................................... 28a
Court of appeals order,
July 6, 2020............................................. 31a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50701
CITY OF SAN ANTONIO, TEXAS, On Behalf Of Itself And All Other Similarly Situated
Texas Municipalities,
Plaintiff-Appellant,
v.
HOTELS.COM, L.P.; HOTWIRE, INCORPORATED;
TRIP NETWORK, INCORPORATED, doing business as Cheaptickets.com; EXPEDIA,
INCORPORATED; INTERNETWORK
PUBLISHING CORPORATION, doing business as
Lodging.Com; ORBITZ, L.L.C.; PRICELINE.COM,
INCORPORATED; SITE59.COM, L.L.C.;
TRAVELOCITY.COM, L.P.; TRAVELWEB, L.L.C.;
TRAVELNOW.COM, INCORPORATED,
Defendants-Appellees.
Filed: May 11, 2020
Appeal from the United States District Court
for the Western District of Texas
Before SOUTHWICK, COSTA, and DUNCAN,
Circuit Judges.
(1a)

2a
OPINION
STUART KYLE DUNCAN, Circuit Judge:
The Federal Rules of Appellate Procedure provide a
framework for allocating appellate litigation costs between parties. For example, if the judgment below is reversed, the costs of printing appellate briefs are, by default, “taxed” against the appellees. FED. R. APP. P.
39(a)–(c). The rules also provide that certain other appeal
costs, including premiums paid for bonds used to stay a
money judgment and secure the right to appeal, are taxable in the district court. FED. R. APP. P. 39(e). In this
case, the district court concluded that it was obligated under these rules to tax in excess of $2 million in appeal
bond costs against the City of San Antonio. We affirm.
I.
This appeal represents the latest installment in a
long-running legal dispute pitting a class of 173 Texas
municipalities against various online travel companies
(OTCs) such as Hotels.com, Hotwire, Orbitz, and Travelocity. The dispute began in 2006 when the City of San
Antonio filed a putative class action lawsuit alleging the
service fees charged by OTCs for facilitating hotel reservations are part of the “cost of occupancy,” and, therefore, subject to the municipalities’ hotel tax ordinances.
The municipalities sought money damages for unpaid and
underpaid hotel occupancy taxes, as well as a declaratory
judgment that OTCs must collect and remit hotel occupancy taxes based on the amount collected for the room
rate and service fee combined, i.e., the “retail rate.”
In 2011, after a jury determined OTCs “control” hotels under the municipalities’ ordinances, the district

3a
court held that, as a matter of law, the retail rate was subject to the hotel occupancy tax, not merely the discounted
room rate negotiated by the OTCs. Shortly thereafter, a
Texas state court of appeals handling similar litigation involving the City of Houston (which had opted out of the
class in the federal proceeding) reached the opposite conclusion. The state court held that the hotel occupancy tax
only applies to the discounted room rate paid by the OTC
to the hotels. City of Houston v. Hotels.com, L.P., 357
S.W.3d 706, 708 (Tex. App.—Houston [14th Dist.] 2011,
pet. denied). The OTCs subsequently moved the district
court to amend its findings and conclusions in light of the
Texas court’s decision. The district court denied the motion and instead entered a final judgment awarding the
municipalities $55,146,489 in unpaid taxes, interest, and
penalties.
The OTCs immediately sought approval for
$68,673,780 in appeal bonds, a figure calculated to cover
the judgment along with up to 18 months’ worth of interest and penalties. The district court approved the bond
amounts, and, pursuant to Rule 62 of the Federal Rules
of Civil Procedure, stayed the judgment until after all
post-judgment motions and appeals had been resolved.
The OTCs promptly filed their appeal bonds. Shortly
thereafter, in early May 2013, the OTCs filed a renewed
motion for judgment as a matter of law, or, alternatively,
a new trial. In November 2014, after the district court
failed to decide the OTCs’ post-judgment motion within
18 months, the OTCs increased their appeal bond
amounts. Another year passed with no decision from the
district court, so the bonds were increased yet again.
Finally, in January 2016, the district court denied the
OTCs’ various post-judgment motions. That April, the

4a
court entered an amended judgment of $84,123,089 reflecting increased penalties as well as taxes and interest
that had accrued since the first judgment. The parties
cross-appealed to this court.
In November 2017, we ruled in favor of the OTCs, reasoning that the state court’s decision was “on point” and
its “interpretation control[ling],” therefore “the hotel occupancy tax applies only to the discounted room rate paid
by the OTC to the hotel.” City of San Antonio v. Hotels.com, 876 F.3d 717, 724 (5th Cir. 2017) (cleaned up).
We “vacated” the district court’s judgment and “rendered” judgment for the OTCs. Id.
Pursuant to Federal Rule of Appellate Procedure
39(d), the OTCs timely filed a bill of costs in this court
seeking copying costs in the amount of $905.60, nothing
more. San Antonio did not object to these costs. We subsequently denied San Antonio’s requests for panel and en
banc rehearing, issuing our mandate on February 14,
2018. The mandate ordered that “plaintiff-appellee crossappellant [i.e., San Antonio] pay to defendants-appellants
cross-appellees [i.e., the OTCs] the costs on appeal to be
taxed by the Clerk of this Court.”
Back in the district court, the OTCs moved for “an order entering Final Judgment in favor of the OTCs, releasing all supersedeas bonds, and awarding costs to the
OTCs as the prevailing parties.” The OTCs’ proposed order stated that “costs shall be taxed against the Cities in
favor of the OTCs pursuant to 28 U.S.C. § 1920, Fed. R.
Civ. P. 54, and Fed. R. App. P. 39.” San Antonio responded that it had “no objection as to the form of the
Proposed Judgment.” Accordingly, the district court entered the OTCs’ proposed order without alteration.

5a
Following entry of final judgment, the OTCs filed a
bill of costs in the district court seeking $2,353,294.58. In
addition to the $905.60 sought in our court and various
other court fees and copying costs, the bill of costs included $2,008,359.00 for “post-judgment interest” and
“premiums paid for the supersedeas bonds required to
secure a stay of execution and preserve rights pending
appeal (FED. R. APP. P. 39(e)(3)).”
San Antonio objected, urging the district court to refuse to tax, or at least substantially reduce, the appeal
bond premiums sought by the OTCs. The district court
noted that San Antonio made “some persuasive arguments” but, relying on In re Sioux Ltd., Sec. Litig., No.
87-6167, 1991 WL 182578 (5th Cir. Mar. 4, 1991), the court
concluded that it lacked discretion to reduce taxation of
the bond premiums. Accordingly, the district court entered a bill of costs taxing $2,226,724.37 against San Antonio. 1 The City timely appealed.
II.
Although we have not previously articulated the
standard of review applicable to a district court’s interpretation of the Federal Rules of Appellate Procedure,
we review other matters of statutory interpretation de
novo, including a district court’s interpretation of the
Federal Rules of Civil Procedure. See Basha v.
Mitsubishi Motor Credit of Am., Inc., 336 F.3d 451, 453
(5th Cir. 2003). Therefore, de novo review is appropriate
here. Cf. L-3 Communications Corp. v. OSI Sys., Inc.,
607 F.3d 24, 27 (2d Cir. 2010) (reviewing interpretation of
1
This figure is slightly reduced from the amount originally billed by
the OTCs for reasons not relevant to this appeal.

6a
Federal Rules of Appellate Procedure de novo); ReederSimco GMC, Inc. v. Volvo GM Heavy Truck Corp., 497
F.3d 805, 808 (8th Cir. 2007) (same); Golden Door Jewelry
Creations, Inc. v. Lloyds Underwriters Non-Marine
Ass’n, 117 F.3d 1328, 1340 (11th Cir. 1997) (same).
III.
A.
Under Rule 39 of the Federal Rules of Appellate Procedure, some appellate costs are taxed in the court of appeals, while others are “made taxable in the district court
for general convenience.” Sioux, 1991 WL 182578, at *1
(quoting FED. R. APP. P. 39, Advisory Committee Notes).
In general, Rule 39 “dictates that the disposition of the
appeal is the deciding factor in the assessment of appellate costs.” Studiengesellschaft Kohle mbH v. Eastman
Kodak Co., 713 F.2d 128, 131 (5th Cir. 1983). To that end,
Rule 39(a) provides default taxation rules for four categories of cases as follows:
Against Whom Assessed. The following rules apply
unless the law provides or the court orders otherwise:
(1) if an appeal is dismissed, costs are taxed
against the appellant, unless the parties agree otherwise;
(2) if a judgment is affirmed, costs are taxed
against the appellant;
(3) if a judgment is reversed, costs are taxed
against the appellee;

7a
(4) if a judgment is affirmed in part, reversed in
part, modified, or vacated, costs are taxed only as
the court orders.
FED. R. APP. P. 39(a).
A threshold question that divides the parties is
whether this case is properly viewed under Rule 39(a)(3)
or 39(a)(4). San Antonio argues that Rule 39(a)(4) applies
because this court, by the terms of its mandate in the first
appeal, “vacated” the district court’s judgment. The
OTCs maintain that Rule 39(a)(3) applies because this
court “set aside the entire judgment against the OTCs
and rendered judgment for the OTCs ... a reversal under
any standard.”
We agree with the OTCs that this is a Rule 39(a)(3)
case. Parts (1)–(3) of Rule 39(a) apply when there is a
clear prevailing party on appeal, regardless of the exact
decretal language used by the court of appeals, whereas
part (4) applies when there is no clear winner or the results are mixed. See Chem. Mfrs. Ass’n v. E.P.A., 885
F.2d 1276, 1278 (5th Cir. 1989) (“[A]lthough the structure
of Rule 39(a) suggests that the allocation of costs ordinarily follows the ruling on the merits, when the results on
appeal are mixed, then costs should be allowed only as ordered by the court.” (internal quotation marks and citation omitted)); Exxon Valdez v. Exxon Mobil, 568 F.3d
1077, 1081 (9th Cir. 2009) (applying 39(a)(4) where “neither side is the clear winner”); L-3 Communications, 607
F.3d at 28 (explaining 39(a)(4) applies where “the disposition on appeal will not lend itself to a ready determination of which party, if any, should bear costs on appeal”);
16AA Wright & Miller, Fed. Prac. & Proc. Juris. § 3985
(4th ed.) (“The prevailing party, except where no party
completely prevails, thus becomes entitled to an award of

8a
costs as a matter of course, whether or not the opinion or
judgment of the court of appeals so states.”). Here, the
OTCs utterly prevailed in their first appeal. There was
nothing left for the district court to do other than enter
final judgment in the OTCs’ favor and address costs. Because the OTCs were the clear prevailing party in the
first appeal, not to mention the entire case, Rule 39(a)(3)
applies.
The fact that the decretal language in the first appeal
used the word “vacated” instead of “reversed” does not
change this result. Indeed, “there is a difference of opinion among judges as to the circumstances in which ‘vacated’ or ‘reversed’ should be used in decretal language.”
Jon O. Newman, Decretal Language: Last Words of an
Appellate Opinion, 70 BROOK. L. REV. 727, 728 (2005).
While an argument can be made that “reversed” might
have been the better choice for the decretal language in
the first appeal, see id. at 728–29, what matters for purposes of Rule 39(a) is the substance of the disposition, not
merely the form. See, e.g., Saunders v. Washington
Metro. Area Transit Auth., 505 F.2d 331, 333 (D.C. Cir.
1974) (“Our disposition of appellants’ appeals, though in
form a remand for further proceedings, was a reversal in
every sense of the word.”). In substance, our mandate in
the first appeal—which rendered judgment for the
OTCs—was nothing less than a reversal.
B.
Where applicable, Rule 39(a)(3) provides that, by default, appeal “costs are taxed against the appellee.” FED.
R. APP. P. 39(a)(3). This includes the enumerated appeal
costs—such as appeal bond premiums—taxable in the
district court under Rule 39(e), which reads:

9a
Costs on Appeal Taxable in the District Court. The
following costs on appeal are taxable in the district
court for the benefit of the party entitled to costs under this rule:
(1) the preparation and transmission of the record;
(2) the reporter’s transcript, if needed to determine the appeal;
(3) premiums paid for a bond or other security to
preserve rights pending appeal; and
(4) the fee for filing the notice of appeal.
FED. R. APP. P. 39(e). An exception to the default rule exists where the appellate court “orders otherwise.” FED.
R. APP. P. 39(a). See Moore v. Cty. of Delaware, 586 F.3d
219, 221 (2d Cir. 2009) (holding Rule 39 gives appellate
courts discretion to deny award of appeal costs even
where properly taxable and collecting cases); Saunders,
505 F.2d at 334 (“Absent a contrary direction by this [appellate] court, appellants were entitled ... to their costs as
a matter of course.”). Seizing on this exception in Rule 39,
San Antonio contends that even if 39(a)(3) controls, our
mandate in the first appeal “displaced” the default rule
by limiting appellate costs to those “taxed by the Clerk of
this Court.” Based largely on the fact that the OTCs
“never asked” our court for Rule 39(e) costs, the City construes the mandate language as limiting appellate costs
to the docketing and printing costs taxable in this court.
San Antonio’s argument is unavailing. Nothing in our
mandate in the first appeal purports to preclude or otherwise limit an award of taxable Rule 39(e) appeal costs
in the district court. Furthermore, the OTCs’ failure to

10a
request Rule 39(e) appeal costs in this court is of no moment. The proper place to seek Rule 39(e) appeal costs is
in the district court, where those costs are taxable “for
general convenience.” FED. R. APP. P. 39, Advisory Committee Notes. See, e.g., LULAC v. City of Boerne, No. SA96-CV-808-XR, 2013 WL 12231416, at *26 (W.D. Tex.
Feb. 20, 2013) (instructing prevailing appellant to include
supersedeas bond premiums and other Rule 39(e) appeal
costs on district court bill of costs).
Because we did not “order otherwise,” the default rule
under 39(a)(3) controls. Accordingly, the district court
was empowered to grant the OTCs’ request for appeal
bond costs.
C.
San Antonio asserts that even if the district court was
authorized to grant the OTCs’ request for Rule 39(e) appeal costs, the award should nevertheless be vacated because the district court applied the wrong legal standard,
thinking it lacked discretion to deny or reduce the award
when in reality it could have done so. As San Antonio
points out, most other circuits to have considered this issue have held—or at least implied—that a district court
retains discretion to deny or reduce a Rule 39(e) award,
regardless of whether the district court’s authority to
grant the award arises from one of the default rules in
39(a)(1)–(3) or from an appellate court’s mandate in a
39(a)(4) case. See, e.g., Republic Tobacco Co. v. N. Atl.
Trading Co., 481 F.3d 442, 449 (7th Cir. 2007) (citing Guse
v. J. C. Penney Co., 570 F.2d 679, 681 (7th Cir. 1978));
Campbell v. Rainbow City, Alabama, 209 F. App’x 873,
875 (11th Cir. 2006) (unpublished); In re Bonds Distrib.

11a
Co., 73 F. App’x 605, 607 (4th Cir. 2003) (unpublished). 2
The problem for San Antonio, however, is that our circuit
adopted the contrary position almost three decades ago
in Sioux, which remains binding precedent. 3

2
To be sure, San Antonio overstates the out-of-circuit support for its
position. Some of San Antonio’s cases are distinguishable because the
appeal costs at issue were above and beyond those enumerated in
Rule 39(e). See, e.g., Dana Corp. v. IPC Ltd. P’ship, No. 90-1443, 1991
WL 5890, at *3 (Fed. Cir. Jan. 25, 1991) (considering district court’s
discretion to award costs paid for letter of credit); Johnson v. Pac.
Lighting Land Co., 878 F.2d 297, 298 (9th Cir. 1989) (same); Bose
Corp. v. Consumers Union of U.S., Inc., 806 F.2d 304, 305 (1st Cir.
1986) (per curiam) (same); Lerman v. Flynt Distrib. Co., 789 F.2d 164,
167 (2d Cir. 1986) (considering district court’s discretion to award interest costs on funds borrowed to secure appeal bond). Others only
address a district court’s discretion to grant Rule 39(e) costs in the
absence of, or in contravention of, a specific instruction from the appellate court. See, e.g., L-3 Communications, 607 F.3d at 30 (holding
district court had “authority to tax costs pursuant to Rule 39(e) absent a specific authorization from this Court” and dismissing as “dubious” the argument that amendments to Rule 39 “alter[ed] the scope
of a district court’s discretion in taxing Rule 39(e) costs”); Standard
Concrete Prod. Inc. v. Gen. Truck Drivers Union Local 952, 175 F.
App’x 932, 933 (9th Cir. 2006) (unpublished) (holding that a district
court “does not have discretion to award fees in contravention of this
court’s order as to which party should bear appellate costs”). Finally,
some of San Antonio’s cases are not on point because they turn on the
appellate court’s manifest intention to leave the taxation decision to
the discretion of the district court in Rule 39(a)(4) situations where
the appeal resulted in a remand for further proceedings such that it
remained unclear which party would ultimately prevail on the merits.
See, e.g., Emmenegger v. Bull Moose Tube Co., 324 F.3d 616, 628–29
(8th Cir. 2003); Berthelsen v. Kane, 907 F.2d 617, 622–23 (6th Cir.
1990).

“The fact that [Sioux] is unpublished does not alter its precedential
status, because it was decided before January 1, 1996.” Weaver v.

3

12a
In Sioux, we considered a prior appeal that vacated
the district court’s judgment and remanded for retrial.
1991 WL 182578, at *1; cf. Sioux, Ltd., Sec. Litig. v. Coopers & Lybrand, 914 F.2d 61, 66 (5th Cir. 1990) (first appeal). Applying Rule 39(a)(4), we treated the mandate,
which awarded appellants “the costs on appeal to be
taxed by the Clerk of this Court,” as a determination that
appellants were “the ‘party entitled to costs’ in this case.”
Id. at *1 (quoting FED. R. APP. P. 39(e)). Further, we recognized that the appellate mandate did not “limit costs on
appeal taxable in the district court.” Id. Reasoning that
“[a]bsent some limiting provision in the mandate from the
court of appeals, the party entitled to costs in the court of
appeals is entitled to costs in the district court under Rule
39(e),” we held that appellants were entitled to such costs.
Id. Indeed, we went even further. Noting that “Rule 39(e)
is mandatory,” we held “[t]he district court ha[d] no discretion whether, when, to what extent, or to which party
to award costs of the appeal” and therefore erred by
denying appellant’s application for appeal bond premiums under Rule 39(e). Id.
San Antonio argues Sioux is no longer good law because it specifically relied on language from an old version of Rule 39(e), which was amended in 1998. The old
version stated appellate costs “shall be taxed in the district court” whereas the current version states appellate
costs “are taxable in the district court.” 4 FED. R. APP. P.
Ingalls Shipbuilding, Inc., 282 F.3d 357, 359 (5th Cir. 2002) (citing
5TH CIR. R. 47.5.3).
4

The pre-amendment version of Rule 39(e) stated, in full:
Costs incurred in the preparation and transmission of the record,
the costs of the reporter’s transcript, if necessary for the determination of the appeal, the premiums paid for cost of supersedeas

13a
39(e) (emphases added). According to San Antonio, the
“permissive language” of the 1998 amendment “clarifies
that the phrase ‘shall be taxed in the district court’ was
meant only to identify in which court the listed costs could
be taxed, not to convey that those costs must be taxed to
a party entitled to any appellate costs.” Importantly,
though, San Antonio concedes that the 1998 amendment
was not substantive in nature. 5 The City’s view is that the
Advisory Committee “simply made clearer what it had always intended: that district courts have discretion
whether and in what amount to award Rule 39(e) costs.”
San Antonio’s argument misses the mark. As San Antonio concedes, the 1998 amendment worked no substantive change to Rule 39(e). This means that, at most,
Sioux’s treatment of Rule 39(e) was just as wrong before
the amendment as it was after. But even assuming arguendo that Sioux was wrong from the start as a matter
of interpretation, its treatment of Rule 39 nevertheless
remains controlling law. “As a general rule, one panel
may not overrule the decision of a prior panel, right or
wrong, in the absence of an intervening contrary or superseding decision by this court sitting en banc or by the
bonds or other bonds to preserve rights pending appeal, and the
fee for filing the notice of appeal shall be taxed in the district
court as costs of the appeal in favor of the party entitled to costs
under this rule.
5

The 1998 Advisory Committee Note to Rule 39 reads:
The language and organization of the rule are amended to make
the rule more easily understood. In addition to changes made to
improve the understanding, the Advisory Committee has
changed language to make style and terminology consistent
throughout the appellate rules. These changes are intended to be
stylistic only.

14a
United States Supreme Court.” Billiot v. Puckett, 135
F.3d 311, 316 (5th Cir. 1998); see also Jacobs v. Nat’l Drug
Intelligence Ctr., 548 F.3d 375, 378 (5th Cir. 2008)
(“[E]ven if a panel’s interpretation of the law appears
flawed, the rule of orderliness prevents a subsequent
panel from declaring it void.”).
We express no view on the merits of Sioux’s interpretation of Rule 39(e). We hold only that, because no substantive change in the law has occurred, Sioux remains
binding precedent. Therefore, the district court correctly
recognized that it lacked discretion to deny or reduce the
appeal bond costs to which the OTCs were entitled under
Rule 39.
* * *
For the foregoing reasons, the order of the district
court is AFFIRMED.

15a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
CIVIL NO. SA-06-CA-381-OG
A CLASS ACTION
CITY OF SAN ANTONIO, TEXAS, on behalf of itself
and all other similarly situated Texas cities,
Plaintiffs
v.
HOTELS.COM, L.P., et al,
Defendants
Filed: June 26, 2019
ORDER ON OBJECTIONS TO BILL OF COSTS
Before ORLANDO L. GARCIA, Chief United States
District Judge.
On April 9, 2018, Defendants filed their post-appeal
bill of costs. Docket no. 1337. Plaintiffs filed their objections thereto. Docket no. 1340. Defendants filed a response to the objections. Docket no. 1342. Having reviewed the bill of costs, the objections, written arguments, and the applicable law, the Court finds that Plaintiffs’ objections should be granted in part and the total
costs to be taxed against the City of San Antonio should
be reduced as follows:

16a
A. Reduction of bond premiums 1
Plaintiffs first object to any taxation of supersedeas
bond costs; alternatively, the City of San Antonio objects
to being solely responsible for this tremendous cost which
will be borne by the taxpayers. The City of San Antonio
makes some persuasive arguments, but the Court is constrained by the rules and existing precedent on this issue.
On February 14, 2018, the Fifth Circuit ordered that
its judgment vacating and rendering for the OTCs be issued as the mandate. As part of that mandate, the circuit
court ordered that “plaintiff-appellee cross-appellant pay
to defendants-appellants cross-appellees the costs on appeal to be taxed by the Clerk of this Court.” Docket no.
1332. When a judgment is vacated, “costs shall be allowed
only as ordered by the court.” In re Sioux Ltd., Securities
Litig., 1991 WL 182578, at *1 (5th Cir. 1991) (per curiam)
(quoting Fed. R. App. P. 39(a)). 2 In this case, the Fifth
Circuit so ordered, and “[a]bsent some limiting provision
in the mandate from the court of appeals, the party entitled to costs in the court of appeals is entitled to costs in
the district court under Rule 39(e).” Id. “Some costs on
appeal are taxed in the circuit court. Other costs on appeal are ‘made taxable in the district court for general
convenience.’” Id. (quoting, in part, Fed. R. App. P. 39(e),
Advisory Committee Notes). Rule 39(e)(3) states that
premiums paid for a supersedeas bond or other bond to
preserve rights pending appeal are taxable in the district
court. Fed. R. App. P. 39(e)(3).

1

Docket no. 1340, pp. 3-9.

Pursuant to Fifth Circuit Local Rule 47.5.3, “[u]npublished opinions
issued before January 1, 1996, are precedent.”

2

17a
Plaintiffs argue that because the award to the City of
San Antonio represented only a portion of the total judgment, it would be unjust to hold San Antonio solely responsible for the full bond amounts. See, e.g., In re Paoli
Railroad Yard PCB Litigation, 221 F.3d 449,454 (3d Cir.
2000) (“We conclude that it was inequitable to saddle [two
of the nineteen plaintiffs] with one hundred percent of the
defendants’ costs . . . when they were responsible for only
a discrete and recognizable fraction of that sum . . .”);
Rand v. Monsanto, 926 F.2d 596, 601 (7th Cir. 1991) (“a
district court may not establish a per se rule that the representative plaintiff must be willing to bear all (as opposed to a pro rata share) of the costs of the [class] action”), overruled on other grounds, Chapman v. First Index, Inc., 796 F.2d 783 (7th Cir. 2015). However, there is
no precedent in the Fifth Circuit to support the City’s argument under the circumstances herein. Instead, Fifth
Circuit authority seems to make clear that the district
court “has no discretion regarding whether, when, to
what extent, or to which party to award costs of the appeal . . . its sole responsibility is to ensure that only
proper costs are awarded.” In re Sioux Ltd., 1991 WL
182578, at *1. For that reason, the Court is constrained to
enforce Rule 39(e) as written, pursuant to the Fifth Circuit’s mandate. See Certain Underwriters at Lloyds,
London v. Oryx Energy Co., 25 F. Supp. 2d 769, 770 (S.D.
Tex. 1998) (as the Fifth Circuit specifically ordered that
costs on appeal be taxed against the plaintiff, the district
court “has no discretion”) (citing In re Sioux Ltd., 1991
WL 182578, at *1); see also LULAC v. City of Boerne,
2013 WL 12231416, at *23 (W.D. Tex. 2013) (“Absent
some limiting provision in the mandate . . . the district
court has no discretion regarding whether, when, to what
extent, or to which party to award costs of the appeal”)

18a
(citing In re Sioux Ltd., 1991 WL 182578, at *1). 3 The
Court is unable to further reduce the amount of bond premiums being sought. 4
B. Reduction of costs for deposition transcripts and
videos
1. Unidentified deposition costs 5
Plaintiffs object to some of the deposition costs because there is no supporting documentation to substantiate such costs. Most of the deposition costs can be traced
to actual invoices from court reporting services, but
Plaintiffs object to the deposition costs that cannot be
traced to any invoices and fail to identify the deponent
and whether the costs relate to written transcripts or videotaped depositions. Defendants do not respond to this
argument. Without supporting documentation to identify
the depositions for which the alleged cost was incurred,
the request for reimbursement must be denied. Modesta
Lopez-Santiago v. Coconut Thai Grill, 2015 WL 7294896,
at *3 (N.D. Tex. 2015) (defendants did not meet their burden to show deposition costs were necessarily incurred
when they failed to identify the depositions for which they
sought recovery of costs). This results in a reduction of
$16,623,75.

3
See also Berkley Regional Ins. Co. v. Philadelphia Indemnity Ins.
Co., 600 F. App’x. 230, 237 (5th Cir. 2015) (“Rule 39(e)’s express authorization of these costs is binding on district courts”) (citing Republic Tobacco Co. v. N. Atl. Trading Co., 481 F.3d 442,448 (7th Cir.
2007)).

The parties stipulated to a downward adjustment in the amount of
$68,681.64, but the Court cannot order any further reduction.
4

5

Docket no. 1340, p. 10 ¶ 1.

19a
2. Duplicative deposition costs 6
The OTCs engaged in a joint defense of this litigation.
But with respect to 15 deponents, multiple defendants appear to be seeking reimbursement for the exact same
transcripts or videos. As Plaintiffs point out, “it would
have been reasonable for no more than one of the OTCs’
law firms to order a copy of any given transcript or video,
as the firms could readily share the transcripts and videos. Indeed, this appears to have occurred in most instances.” In some instances where there was duplication,
the OTCs “appear to have controlled for the duplication”
by eliminating the duplicate amounts from the bill of
costs. But there are still 15 deposition transcripts or videos that are entirely duplicative. The OTCs claim they
weren’t obligated to share transcripts and videos; by the
same token, they have to show their costs are reasonable
and necessary. Costs that are duplicative are typically unnecessary. Considering the joint manner in which the
OTCs litigated this case, and the failure to explain why it
was necessary to incur these duplicative costs, other than
mere convenience, the Court will not require Plaintiffs to
reimburse them. See Baisden v. I’m Ready Productions,
Inc., 793 F. Supp. 2d 970, 973 (S.D. Tex. 2011) (“once an
objection has been raised, the party seeking costs bears
the burden of verifying that the costs were necessarily
incurred in the case rather than just spent in preparation
and litigation of the case”) (emphasis added); Canion v.
United States, 2005 WL 2216881, at *3 (W.D. Tex. 2005)
(costs incurred “primarily for the convenience of counsel”
are not authorized). This results in a downward adjustment of $18,867.76.
6

Docket no. 1340, pp. 10-11 ¶ 2.

20a
3. Video depositions of the OTCs’ own witnesses 7
The OTCs are also seeking reimbursement for video
depositions of their own witnesses. When seeking costs
for both videotaped and transcribed versions of the same
deposition, the requesting party bears the burden of
showing that both versions of the deposition were reasonably and necessarily obtained for use in the case.
Baisden, 793 F. Supp. 2d at 977. Defendants have failed
to make a showing that the cost of video depositions of
their own witnesses who were reasonably expected to appear live at trial were necessarily obtained for use in the
case. Subtracting the costs of the video depositions of the
OTCs’ own witnesses results in a downward adjustment
of $16,258.94.
4. Video deposition costs for witnesses whose depositions were not used at trial 8
Defendants seek costs for the video depositions of 77
deponents, and only 26 of the deponents actually testified
by deposition at trial. This Court does not generally
award costs for both transcripts and videos unless the
videos were actually used at trial. Structural Metals, Inc.
v. S & C Elec. Co., 2013 WL 3790450, at *4 (W.D. Tex.
2013); Two-Way Media, LLC v. AT&T Services, Inc.,
2013 WL 12090356, at *3 (W.D. Tex. 2013). The amount
of deposition costs sought by the OTCs for videos of deponents who did not testify by deposition at trial will not
be reimbursed. This results in a reduction of $17,424.85.

7

Docket no. 1340, p. 11 ¶ 3.

8

Docket no. 1340, p. 12 ¶ 4.

21a
5. Total downward adjustment to deposition transcript and video costs 9
As the City of San Antonio has noted, some of the
foregoing objections and reductions to transcript and
video costs overlap. Thus, the Court cannot simply aggregate the individual reductions to compute a total downward adjustment for transcript and video costs. After
taking this into account, the downward adjustment to all
of the deposition transcript and video costs is $58,753.09.
C. Copying and exemplification costs 10
Plaintiffs further object to the OTCs’ request for reimbursement of copying and exemplification costs in the
amount of $202,068.25. Many of the documents offered in
support of the request generically refer to “B&W Copies
- Medium/Heavy Litigation” or “Heavy Litigation Copies” or “Color Copies - Legal” or “Blowbacks” and “Slip
Sheets” without specifying the type of documents being
copied or how they relate to the case. Without further description, the Court does not have sufficient information
to make a reasonable determination of necessity. See
Honestech v. Sonic Solutions, 725 F. Supp. 2d 573, 584
(W.D. Tex. 2010) (“Although prevailing parties do not
have to justify every single photocopying cost, they do
have to provide enough information for the Court [to be]
able to make a reasonable determination of necessity”);
Eastman Chemical Co. v. PlastiPure, Inc., 2013 WL
5555373, at *7 (W.D. Tex. 2013) (same). This results in a
downward adjustment of $67,817.12 in copying and exemplification costs.
9

Docket no. 1340, pp. 12-13 ¶ 5

10

Docket no. 1340, pp. 13-15.

22a
It is therefore ORDERED that the Clerk of the Court
may tax costs in the amount of $2,226,724.37. 11
SIGNED this 26 day of June, 2019.
s/ Orlando L. Garcia
ORLANDO L. GARCIA
CHIEF U.S. DISTRICT JUDGE

11
The total reduction ordered herein is $126,570.21. The total sum
sought ($2,353,294.58) minus the reduction ($126,570.21) equals
$2,226,724.37.

23a
APPENDIX C
AO 133 (Rev. 12/09) Bill of Costs

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
Case No.: 5:06-cv-00381-OLG
CITY OF SAN ANTONIO, TEXAS, et al.,
Plaintiffs
v.
HOTELS.COM, L.P., et al.,
Defendants
Filed: June 26, 2019
BILL OF COSTS
Judgment having been entered in the above entitled action on 3/26/2018 against Plaintiffs , the Clerk is requested to tax the following as costs:
Fees of the Clerk…………………….

$

505.00

Fees for service of summons and subpoena…………………………………..

632.50

Fees for printed or electronically recorded transcripts necessarily obtained
for use in the case……………………...

139,276.23

24a

Fees and disbursements for printing...
Fees for witnesses (itemize on page
two)……………………………………..

1,548.00

Fees for exemplification and the costs
of making copies of any materials
where the copies are necessarily obtained for use in the case………………

202,068.25

Docket fees under 28 U.S.C. 1923…….

0.00

Costs as shown on Mandate of Court
of Appeals……...………………………

905.60

Compensation of court-appointed experts……………………………………

0.00

Compensation of interpreters and
costs of special interpretation services
under 28 U.S.C. 1828………………….

0.00

Other costs (please itemize)………….
………….See Footnote 1……………..

2,008,359.00

TOTAL

$2,353,924.58

SPECIAL NOTE: Attach to your bill an itemization and
documentation for requested costs in all categories.
Declaration
I declare under penalty of perjury that the foregoing
costs are correct and were necessarily incurred in this action and that the services for which fees have been

25a
charged were actually and necessarily performed. A copy
of this bill has been served on all parties in the following
manner:
[√] Electronic service [ ] First class mail, postage prepaid
[ ] Other
s/ Attorney: s/Les Strieber
Name of Attorney: Les Strieber
For:

Defendants

Name of Claiming Party

Date:

04/09/2018

Taxation of Costs
Costs are taxed in the amount of $2,226,724.37 and included in the judgment.
s/ JEANNETTE J. CLACK
Clerk of Court

s/[signature]

Deputy Clerk

6/26/19

Date

26a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-50479
CITY OF SAN ANTONIO, TEXAS, On Behalf Of Itself And All Other Similarly Situated
Texas Municipalities,
Plaintiff-Appellee Cross-Appellant,
v.
HOTELS.COM, L.P.; HOTWIRE, INCORPORATED;
TRIP NETWORK, INCORPORATED, doing business as Cheaptickets.com; EXPEDIA,
INCORPORATED; INTERNETWORK
PUBLISHING CORPORATION, doing business as
Lodging.Com; ORBITZ, L.L.C.; PRICELINE.COM,
INCORPORATED; SITE59.COM, L.L.C.;
TRAVELOCITY.COM, L.P.; TRAVELWEB, L.L.C.;
TRAVELNOW.COM, INCORPORATED,
Defendants-Appellants Cross-Appellees.
Filed: November 29, 2017
Appeal from the United States District Court
for the Western District of Texas
D.C. Docket No. 5:06-CV-381
Before BARKSDALE, DENNIS, and CLEMENT,
Circuit Judges.

27a
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is vacated and rendered for OTCs.
IT IS FURTHER ORDERED that plaintiff-appellee
cross-appellant pay to defendants-appellants cross-appellees the costs on appeal to be taxed by the Clerk of this
Court.

28a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-50479
CITY OF SAN ANTONIO, TEXAS, On Behalf Of Itself And All Other Similarly Situated
Texas Municipalities,
Plaintiff-Appellee Cross-Appellant,
v.
HOTELS.COM, L.P.; HOTWIRE, INCORPORATED;
TRIP NETWORK, INCORPORATED, doing business as Cheaptickets.com; EXPEDIA,
INCORPORATED; INTERNETWORK
PUBLISHING CORPORATION, doing business as
Lodging.Com; ORBITZ, L.L.C.; PRICELINE.COM,
INCORPORATED; SITE59.COM, L.L.C.;
TRAVELOCITY.COM, L.P.; TRAVELWEB, L.L.C.;
TRAVELNOW.COM, INCORPORATED,
Defendants-Appellants Cross-Appellees.
Filed: February 14, 2018
BILL OF COSTS
NOTE: The Bill of Costs is due in this office within
14 days from the date of the opinion, See FED. R. APP.
P. & 5th CIR. R. 39. Untimely bills of costs must be accompanied by a separate motion to file out of time,
which the court may deny.

29a
City of San Antonio, Texas v. Hotels.com, L.P., et
al. No. 16-50479
The Clerk is requested to tax the following costs
against: Appellee City of San Antonio, Texas

Docket
Fee
($500.00)

500

Total Cost

Cost per Page*

Pages per Document

No. of Documents

ALLOWED (If different from amount
requested

Total Cost

Cost per Page*

Pages Per Copy

REQUESTED

No. of Copies

COSTS
TAXABLE
UNDER
Fed. R.
App. P.
& 5th
Cir. R.
39

500.
00

Appendix
or Record Excerpts

4

333

0.15

199.
8

4

333

.15

199.
80

Appellant’s
Brief

7

101

0.15

106.
05

7

101

.15

106.
05

Appellee’s
Brief

30a

Appellant’s Reply Brief

7

95

0.15

99.
75

7

95

.15

99.
75

Other: [ ]

Costs are taxed in the
amount of
$ [905.60]

Total $ [905.6]

Costs are hereby taxed in the amount
$ 905.60 this 14th day of February , 2018 .
State of

LYLE W. CAYCE, CLERK

County of

By

of

s/[signature]
Deputy Clerk

I
David Keltner , do hereby swear under penalty
of perjury that the services for which fees have been
charged were incurred in this action and that the services for which fees have been charged were actually
and necessarily performed. A copy of this Bill of Costs
was this day mailed to opposing counsel, with postage
fully prepaid thereon. This 13th day of December , 2017 .
/s/ David Keltner
(Signature)
Attorney for Appellants Hotels.com, L.P., et al.
*SEE REVERSE SIDE FOR RULES
GOVERNING TAXATION OF COSTS

31a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50701
CITY OF SAN ANTONIO, TEXAS, On Behalf Of Itself And All Other Similarly Situated
Texas Municipalities,
Plaintiff-Appellant,
v.
HOTELS.COM, L.P.; HOTWIRE, INCORPORATED;
TRIP NETWORK, INCORPORATED, doing business as Cheaptickets.com; EXPEDIA,
INCORPORATED; INTERNETWORK
PUBLISHING CORPORATION, doing business as
Lodging.Com; ORBITZ, L.L.C.; PRICELINE.COM,
INCORPORATED; SITE59.COM, L.L.C.;
TRAVELOCITY.COM, L.P.; TRAVELWEB, L.L.C.;
TRAVELNOW.COM, INCORPORATED,
Defendants-Appellees.
Filed: July 6, 2020
Appeal from the United States District Court
for the Western District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion: 05/11/20, 5 Cir.,

,

F. 3d.

)

32a
Before SOUTHWICK, COSTA, and DUNCAN,
Circuit Judges.
ORDER
PER CURIAM:
The court having been polled at the request of one of
its members, and a majority of the judges who are in regular active service and not disqualified not having voted
in favor (FED. R. APP. P. 35 and 5TH CIR. R. 35), rehearing
en banc is DENIED. In the en banc poll, six judges voted
in favor of rehearing (Judge Smith, Judge Dennis, Judge
Elrod, Judge Duncan, Judge Engelhardt, and Judge Oldham), and ten judges voted against rehearing (Chief
Judge Owen, Judge Jones, Judge Stewart, Judge Southwick, Judge Haynes, Judge Graves, Judge Higginson,
Judge Costa, Judge Willett, and Judge Ho).
ENTERED FOR THE COURT:
s/ Stuart Kyle Duncan
STUART KYLE DUNCAN
UNITED STATES CIRCUIT JUDGE

